    Independent Auditor's Report 



Broadcasting Board of Governors' 

      Financial Statements 


    September 30, 2008 and 2007 



     AUD/FM-09-03, November 2008 





  Leonard G. Birnbaum and Company, LLP 

       Certified Public Accountants 

           6285 Franconia Road 

        Alexandria, Virginia 22310 

              (703) 922-7622 

                         LEONARD G. BIRNBAUM                          AND   COMPANY, LLP
                                           CERTIFIED PUBLIC ACCOUNTANTS
                                                     WASHINGTON OFFICE 

                                                    6285 FRANCONIA ROAD 

                                                  ALEXANDRIA, VA 22310·2510 



                                                        (703) 922·7622
                                                      FAX; (703) 922·8256
LESLIE A. LEIPER                                                                                        WASHINGTON, D.C.

LEONARD G. BIRNBAUM                                                                                  SUMMIT, NEW JERSEY

DAVID SAKOFS                                                                                     REDWOOD CITY, CALIFORNIA

CAROL A. SCHNEIDER
DORA M. CLARKE




                                    INDEPENDENT AUDITOR'S REPORT



           To the Chainnan
           Broadcasting Board of Governors

           We have audited the Broadcasting Board of Governors' (BBG) Consolidated Balance
           Sheet, Consolidated Statement of Net Cost, Consolidated Statement of Changes in Net
           Position, and Combined Statement of Budgetary Resources (annual financial statements)
           as of, and for the years ended, September 30, 2008 and 2007. We have considered
           internal control over financial reporting in place as of September 30, 2008, and for the
           year then ended, and we tested compliance with selected laws and regulations.

           In our opinion, BBG's 2008 and 2007 annual financial statements are presented fairly in
           all material respects. We did identify certain deficiencies in BBG's internal control that
           we considered to be significant.

           Each of these conclusions is discussed in more detail on the following pages. This report
           also discusses the scope of our work.

                                      ANNUAL FINANCIAL STATEMENTS

           In our opinion, BBG's annual financial statements, including the notes thereto, present
           fairly, in all material respects, BBG's financial position as of September 30, 2008 and
           2007, and its net cost of operations, changes in net position, and use of budgetary
           resources for the years then ended, in confOlmity with accounting principles generally
           accepted in the United States of America.




                             MEMBERS OF THE AMERICAN INSTITUTE OF CERTIFIED PU6LIC ACCOUNTANTS
                                  INTERNAL CONTROL 


In planning and performing our audits ofBBG's financial statements as of, and for the
years ended, September 30, 2008 and 2007, in accordance with auditing standards
generally accepted in the United States of America, we considered BBG's internal
control over financial reporting as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the annual financial statements but not for the
purpose of expressing an opinion on the effectiveness ofBBG's internal control.
Accordingly, we do not express an opinion on the effectiveness ofBBG's internal
control. We limited our consideration of internal control to those controls necessary to
achieve the objectives described in Office of Management and Budget (OMB) Bulletin
07-04, Audit Requirements for Federal Financial Statements . We did not consider all
internal controls relevant to operating objectives as broadly defined by the Federal
Managers' Financial Integrity Act of 1982 (FMFIA), such as those controls relevant to
ensuring efficient operations.

The purpose of internal control is to provide management with reasonable, but not
absolute, assurance that the following objectives are met:

       • 	 transactions are properly recorded and accounted for to permit the preparation
           of reliable financial reports and to maintain accountability over assets;

       • 	 funds, property, and other assets are safeguarded against loss from
           unauthorized acquisition, use, or disposition; and

       • 	 transactions, including those related to obligations and costs, are executed in
           compliance with laws and regulations that could have a direct and material
           effect on the financial statements and other laws and regulations that OMB,
           BBG's management, or the Office ofInspector General has identified as being
           significant for which compliance can be objectively measured and evaluated.

Our consideration of the internal control over financial reporting would not necessarily
identify all deficiencies in internal control that might be significant deficiencies or
material weaknesses. However, as discussed below, we identified certain deficiencies in
internal control that we consider to be significant deficiencies.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions,
to prevent or detect misstatements on a timely basis. Under standards issued by the
American Institute of Certified Public Accountants, a significant deficiency is a control
deficiency, or combination of control deficiencies, that adversely affects the entity's
ability to initiate, authorize, record, process, or report financial data reliably in
accordance with generally accepted accounting principles such that there is more than a
remote likelihood that a misstatement of the entity's financial statements that is more
than inconsequential will not be prevented or detected by the entity's internal control.




                                             2

We consider the following two deficiencies to be significant deficiencies in internal
control:

        • 	 BBG's internal control over its financial and accounting system as of
            September 30, 2008, was inadequate. There is a risk of materially misstating
            financial information under the current conditions. The principal area of
            inadequacy was that certain elements of the financial statements, principally
            property, plant, and equipment, are developed from sources other than the
            general ledger. The use of sources other than the general ledger to generate
            elements of the financial statements increases the potential for omission of
            significant transactions.

       This condition was cited in our audit of BBG' s balance sheet as of September 30,
       2004, and in subsequent audits.

       • 	 During FY 2008, BBG did not maintain adequate internal control over
           accounts payable. Initial audit testing indicated that the amount presented as
           accounts payable was misstated by approximately 35 percent. Although BBG
           undertook an initiative to identify and resolve misstatements in accounts
           payable, the reconciliation was not completed by September 30, 2008.

       This condition was cited in our audit ofBBG's annual financial statements as of
       September 30, 2006, and in subsequent audits.

A material weakness is a significant deficiency, or combination of significant
deficiencies, that results in a more than remote likelihood that a material misstatement of
the financial statements will not be prevented or detected by the entity's internal control.
We noted no matters involving internal control or its operation that we considered to be
material weaknesses as defined herein.

We are required to review BBG's current FMFIA report and disclose differences with the
material weaknesses cited in our report. We did not identify any discrepancies.

We noted certain other internal control issues that we have reported to BBG's
management in a separate letter dated November 14, 2008.

                    COMPLIANCE WITH LAWS AND REGULATIONS

BBG's management is responsible for complying with laws and regulations applicable to
BBG. As part of obtaining reasonable assurance about whether the annual financial
statements are free of material misstatement, we perfonned tests ofBBG's compliance
with certain provisions oflaws and regulations, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts, and
certain other laws and regulations specified in OMB Bulletin 07-04. We limited our tests
of compliance to these provisions, and we did not test compliance with all laws and
regnlations applicable to BBG. The objective of our audit of the annual financial



                                             3

statements, including our tests of compliance with provisions of selected laws and
regulations, was not to provide an opinion on overall compliance with such provisions.
Accordingly, we do not express such an opinion.

Material instances of noncompliance are failures to follow requirements, or violations of
prohibitions in statutes and regulations, that cause us to conclude that the aggregation of
the misstatements resulting from those failures or violations is material to the financial
statements or that sensitivity warrants disclosure thereof. The results of our tests of
compliance with laws and regulations disclosed no material instances of noncompliance.

                         RESPONSIBILITIES AND METHODOLOGY

BBG's management has the responsibility for

        • 	 preparing the annual financial statements, required supplementary
            infonnation, and other accompanying infonnation in confonnity with
            accounting principles generally accepted in the United States of America;

        • 	 establishing and maintaining effective internal control; and

        • 	 complying with applicable laws and regulations.

We are responsible for obtaining reasonable assurance about whether management
maintained effective internal control. We are also responsible for testing compliance
with selected provisions of applicable laws and regulations that may materially affect the
financial statements.

In order to fulfill these responsibilities, we

        • 	 examined, on a test basis, evidence supporting the amounts on the annual
            financial statements and related disclosures;

        • 	 assessed the accounting prillciples used and significant estimates made by
            management;

        • 	 evaluated the overall presentation of the annual financial statements;

        • 	 obtained an understanding of the internal controls over financial reporting by
            obtaining an understanding ofBBG's internal control, detennined whether
            internal controls had been placed in operation, assessed control risk, and
            perfonned tests of controls;

        • 	 tested compliance with provisions of selected laws and regulations that may
            have a direct and material effect on the annual financial statements;

        • 	 obtained written representations from management; and


                                                 4

        • 	 performed other procedures as we considered necessary under the
            circumstances.

We performed our work in accordance with auditing standards generally accepted in the
United States of America, the standards applicable to financial audits contained in the
Government Auditing Standards, and the provisions ofOMB Bulletin 07-04. We believe
that our work provided a reasonable basis for our opinions.

The Management's Discussion and Analysis and Required Supplementary Information
are supplementary information required by OMB Circular A-136, Financial Reporting
Requirements, and the Federal Accounting Standards Advisory Board. We have applied
certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of tbe supplementary
information. However, we did not audit the information and express no opinion on it.

This report is intended solely for the inforn1ation and use of BBG' s management, the
Inspector General of the U.S. Department of State a.'1d Broadcasting Board of Governors,
OMB, the Government Accountability Office, the Department of the Treasury, and
Congress and is not intended to be and should not be used by anyone other than those
specified parties. This restriction is not intended to limit the distribution of this report,
which is a matter of public record.

Comments by BBG's management on this report are presented in Appendix A. The
written response by BBG's management to the significant deficiencies identified in Ollr
audit has not been subjected to the auditing procedures applied in the audit of the
financial statements, and accordingly we do not express an opinion on these comments.




                                              Leonard G. Birnbaum and Company, LLP


Alexandria, Virginia
November 14, 2008




                                              5

                                                                                                         APPENDIX A


                BROADCASI1NG BOARD OF GOVERNORS
                UNITED STATES OF AMERICA



        November 17,2008

        The Honorable fl acold W. Geisel
        Acting Inspector General
        Office of Inspector General
        U.S. Department of State 

        Washington D.C. 20522-0308 


        Dear Mr. Geisel:

        This is in response to your request for comments on the report, Audit o/the Broadcasting Board of
        Governors Financial Statements September 30, 2008 and 2007.

        This is the fifth year the BBG has prepared fin ancial statements and undergone an audit. The
        independent audit firm has issued an unqualifi ed ("clean") opinio n on BBG's principal financi al
        statements.

        Achieving an unqualified opinion on its fin ancial statements is a part icularl y significant achievement
        thi s year because the BBG converted to a new financial management system in June 2008. As in
        pri or years, this was also accompli shed under a tight year-end closing schedule - the agency closed its
        FY 2008 books on October 9111 • We appreciate the professional and cooperative manner in which your
        staff and the audit firm, Leonard G. Birnbaum and Company, LLP conducted the audit.

        The report idcntificd two matters invo lving intcrnal control that the auditors considered to bc
        significant. The fi rst relatcs to developing elements of the financial statements, principally property,
        plant, and cquipment, from sources othcr than the general ledger.

       We understand that deve loping e lements ofthc fin ancial stateme nts fTom sources outside of the
       financial system increases the potential for omission of significant transactions. While BBG uses an
       external database to track property, plant, and equipment, the BBG is establishing a process to reduce
       the potential for omitting significant transactions. Thi s will be achieved by reconciling acquisi tion
       information in the Momentum system with information in the property database. Momentum 's
       integration of acq ui sitio n and financial managcment allows us to track awards fo r property, plant, and
       equipment by the fo llowing commodity categories: vehicles, land, and other capitalized goods. We
       will utilize the commodi ty code information from Momentum to reconcile o ur quarterly entries
       derived from the property database with the procurement award s in Momentum identified by
       commodity category.

       The second issue is related to the Agency's reconc ili ation of accounts payabl e. Thi s deficiency was
       due to duplicate poslings of our overseas fil es in June 2008 that were not reconci led by September
       30 th , We have not seen any other instances of duplicate postings since then, and we are continuing to
       research and implement the necessary corrections to accounts payable.



330 INDEPENDENCE AVENUE, sw    ROOM 3300    COllEN nUIWING     WASlllNL"TON. UC 20237   (20'2)   203-4.')45   FAX (2Ul) 203-4.')68
                                                                                  APPENDIX A




Thank you for the opportunity to comment on the audit report and for collaboratively working
with us on our FY 2008 audit. The BBG has made significant strides in the past year as we
converted to a new financial management system to improve internal financial processes, and
underwent the fifth audit of the Agency ' s principal finan cial statements. We are committed to
continually improving the Agency's financial management and the quality of our financial
reporting.




~~~~
Janet K. Stormes 

Chief Financial Officer 

